Docket No.

In the Supreme Court of the United States

GAYLE MCNAMARA,
PETITIONER,
v.
UNITED STATES OF AMERICA,
RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

MOTION TO PROCEED IN FORMA PAUPERIS

James B. Krasnoo, Esq.
Counsel of Record
Krasnoo, Klehm & Falkner LLP
28 Andover Street, Suite 240
Andover, MA 01810
jkrasnoo@kkf-attorneys.com
(978) 475-9955
On Petition:
Benjamin L. Falkner, Esq.
bfalkner@kkf-attorneys.com

The petitioner asks leave to file the attached petition for writ of
certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma
pauperis in the following courts: (1) the United States District Court for the
District of New Hampshire and (2) the United States Court of Appeals for the
First Circuit. The Court of Appeals appointed James B. Krasnoo as counsel
to the petitioner under the Criminal Justice Act of 1964, 18 U.S.C. ยง3006A. A
copy of the order appointing Attorney Krasnoo as counsel is attached hereto.
WHEREFORE, for the above reasons, the petitioner respectfully asks
that this Court GRANT the within motion and asks leave to file the attached
petition for a writ of certiorari without prepayment of costs and to proceed in
forma pauperis.
Petitioner
Gayle McNamara
By her Attorney,

James B. Krasnoo, Esq.
Counsel of Record
Krasnoo, Klehm & Falkner LLP
28 Andover Street, Suite 240
Andover, MA 01810
jkrasnoo@kkf-attorneys.com
(978) 475-9955
On Petition:
Benjamin L. Falkner, Esq.
bfalkner@kkf-attorneys.com

Case: 18-1921

Document: 00117605808

Page: 1

Date Filed: 06/23/2020

Entry ID: 6347748

United States Court of Appeals
For the First Circuit
_____________________
No. 18-1921
UNITED STATES
Appellee
v.
GAYLE MCNAMARA
Defendant - Appellant
__________________
ORDER OF COURT
Entered: June 23, 2020
Pursuant to 1st Cir. R. 27.0(d)
Due to exigent circumstances, Attorney James B. Krasnoo is appointed as counsel under
the guidelines of the Criminal Justice Act, 18 U.S.C. ยง 3006A.
Attorney Robert Mann is allowed to withdraw representation for the appellant. Attorney
Mann is directed to forward the case record to Attorney Krasnoo at Krasnoo Klehm & Falkner
LLP, 28 Andover St, Ste 240, Andover, MA 01810 on or before July 7, 2020.

By the Court:
Maria R. Hamilton, Clerk

cc:
Robert Barney Mann
Gayle McNamara
Donald A. Feith
Seth R. Aframe
James B. Krasnoo
Dana Harrell

